No. 20-

IN THE

'upreme Court of tbe Zattiteb ikateo
EZAKI GLICO KABUSHIKI KAISHA, D/B/A EZAKI GLICO
CO., LTD. & EZAKI GLICO USA CORP.,
Petitioners,
v.
LOTTE INTERNATIONAL AMERICA CORP. & LOTTE
CONFECTIONARY CO. LTD.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 24, 2021.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

